No.

IN THE
SUPREME COURT OF THE UNITED STATES

Devin Kugler

— PETITIONER

(Your Name)
VS.

People of the State of Illinois

— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
! Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):

! Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
! Petitioner’s affidavit or declaration in support of this motion is attached hereto.
! Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
! The appointment was made under the following provision of law:
, or
! a copy of the order of appointment is appended.

(Signature)

